   July 23, 2004




Defense Infrastructure
Department of Defense Policies and
Procedures to Implement the Rural
Development Act of 1972
(D-2004-101)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AR                          Army Regulation
GAO                         Government Accountability Office
IG DoD                      Inspector General of the Department of Defense
DUSD(I&E)                   Deputy Under Secretary of Defense
                            (Installations and Environment)
          Office of the Inspector General of the Department of Defense
Report No. D-2004-101                                                                         July 23, 2004
   (Project No. D2004CK-0124)

       Department of Defense Policies and Procedures to Implement
                  the Rural Development Act of 1972

                                     Executive Summary

Who Should Read This Report and Why? DoD civilians and uniformed officers
responsible for real property acquisition and management should read this report because
the report discusses requirements for giving first priority to the location of new offices
and other facilities in rural areas.

Background. The audit was conducted in response to Public Law 108-199,
“Consolidated Appropriations Act, 2004,” section 636, January 23, 2004, that states:

            Not later than 6 months after the date of enactment of this Act, the
            Inspector General of each applicable department or agency shall submit to
            the Committee on Appropriations a report detailing what policies and
            procedures are in place for each department or agency to give first priority
            to the location of new offices and other facilities in rural areas, as directed
            by the Rural Development Act of 1972.

Results. DoD established policies for implementing the requirements of the Rural
Development Act of 1972; however, DoD had not fully established procedures that
would specifically give first priority to the location of new offices and other facilities in
rural areas. The Office of the Secretary of Defense had not established procedures
incorporating requirements of the Act in a DoD issuance. The process of modifying DoD
issuances is lengthy. In response to the Office of Inspector General of the Department of
Defense Report No. D-2002-089, “Department of Defense Policies and Procedures to
Implement the Rural Development Act of 1972,” May 10, 2002, the Office of the
Secretary of Defense issued a policy memorandum, “Implementation of the Rural
Development Act of 1972,” in February 2003. The policy memorandum stated that the
Military Departments and Defense agencies shall give priority consideration to rural
areas for the location of new offices and other facilities. Army and Navy regulations
governing real property acquisition were under revision and when issued by Army (May
2005) and by Navy (August 2004) will include procedures for implementing the
requirements of the Act. An Air Force Handbook included procedures for implementing
requirements of the Act. As a result, rural areas may be overlooked during relocation of
new offices and other facilities. Revising DoD guidance to specifically reflect the
requirements of the Act will result in additional assurance that DoD meets the intent of
the Act. (See the Finding section of the report for detailed recommendations.)
Management Comments. The Principal Assistant Deputy Under Secretary of Defense
(Installations and Environment) agreed with the report and initiated action to include
requirements of the Rural Development Act of 1972 in a DoD Instruction. A draft of the
DoD Instruction was issued for coordination. (See the Finding section for a discussion of
management comments and the Management Comments section for the complete text of
the comments.)




                                           ii
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               1

Finding
     Policies and Procedures of the Rural Development Act of 1972        2

Appendixes
     A. Scope and Methodology                                            6
         Prior Coverage                                                  7
     B. Report Distribution                                              8

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   11
Background
    We conducted the audit in response to Public Law 108-199, “Consolidated
    Appropriations Act, 2004,” section 636, January 23, 2004, that states:
              Not later than 6 months after the date of enactment of this Act, the
              Inspector General of each applicable department or agency shall submit
              to the Committee on Appropriations a report detailing what policies
              and procedures are in place for each department or agency to give first
              priority to the location of new offices and other facilities in rural areas,
              as directed by the Rural Development Act of 1972.



Objectives
    Our overall audit objective was to determine whether DoD established policies
    and procedures that implement the requirements of the Rural Development Act of
    1972. Specifically, we determined whether DoD Components and Military
    Departments had policies and procedures in place to give first priority to the
    location of offices and other facilities in rural areas. See Appendix A for a
    discussion of the scope, methodology, and prior audit coverage related to the
    audit objective.




                                              1
           Policies and Procedures of the Rural
           Development Act of 1972
           DoD established policies for implementing the requirements of the Rural
           Development Act of 1972 (the Act); however, DoD had not fully
           established procedures that would specifically give first priority to the
           location of new offices and other facilities in rural areas. The Office of
           the Secretary of Defense personnel stated they had not established
           procedures because of the lengthy process involved in modifying DoD
           issuances. Army and Navy regulations governing real property
           acquisition were under revision and when issued by Army (May 2005) and
           by Navy (August 2004) will include procedures for implementing the
           requirements of the Act. An Air Force Handbook included procedures for
           implementing requirements of the Act. As a result, rural areas may be
           overlooked during relocation of new offices and other facilities. Revising
           DoD guidance to specifically reflect the requirements of the Act will
           result in additional assurance that DoD meets the intent of the Act.


Requirements of the Rural Development Act of 1972
    Public Law 92-419, “Rural Development Act,” Section 601, August 30, 1972.
    Public Law 92-419 states:
               Congress hereby directs the heads of all executive departments and
               agencies of the Government to establish and maintain departmental
               policies and procedures giving first priority to the location of new
               offices and other facilities in rural areas as defined in the private
               business enterprise exception in section 306 (a) (7) of the Consolidated
               Farmers Home Administration Act of 1961, as amended (7 U.S.C.
               [United States Code] 1926).

    Federal Management Regulation, Subchapter C, “Real Property,”
    Part 102-83, “Location of Space.” The Federal Management Regulation states
    that executive agencies must give first priority to the location of new offices and
    other facilities in rural areas unless their mission or program requirements call for
    locations in an urban area. The General Services Administration published a
    Federal Management Regulation bulletin in the Federal Register, Vol. 68, No. 13,
    January 21, 2003, that included the procedures for agencies to follow in
    implementing the requirements of the Act. The General Services Administration
    suggested that each agency must demonstrate compliance with the Act by
    including a written statement in the agency files affirming that they have given
    first priority to the location of new offices and other Federal facilities in rural
    areas.




                                             2
DoD Policy and Procedures on the Rural Development Act
    DoD established policies for implementing the requirements of the Act; however,
    DoD had not fully established procedures that would specifically give first
    priority to the location of new offices and other facilities in rural areas. The
    Office of the Secretary of Defense had not established procedures incorporating
    requirements of the Act in a DoD issuance and Navy regulations governing real
    property acquisition were under revision and included procedures for
    implementing the requirements of the Act. In addition, the Air Force had
    addressed procedures implementing the requirements of the Act in their
    regulation governing real property acquisition.

    Office of the Secretary of Defense Policy. On February 21, 2003, the Deputy
    Under Secretary of Defense (Installations and Environment) (DUSD[I&E]) issued
    a policy memorandum, “Implementation of Rural Development Act of 1972,” in
    response to the Inspector General of the Department of Defense (IG DoD) Report
    No. D-2002-089, “Department of Defense Policies and Procedures to Implement
    the Rural Development Act of 1972,” May 10, 2002. The policy memorandum
    stated that the Military Departments and Defense agencies shall give priority
    consideration to rural areas for the location of new offices and other facilities.

    Office of the Secretary of Defense Procedures. DoD Directive 4165.6, “Real
    Property, Acquisition, Management, and Disposal,” September 1, 1987, requires
    that the Military Departments and Defense agencies determine which real
    property satisfies military requirements. However, DoD Directive 4165.6 does
    not include procedures for implementing requirements of the Act. In response to
    the IG DoD Report No. D-2003-104, “Department of Defense Policies and
    Procedures to Implement the Rural Development Act of 1972,” June 17, 2003, the
    DUSD(I&E) stated that a complete revision of DoD Directive 4165.6 was
    initiated and the anticipated completion and publication date was December 2003.
    However, DUSD(I&E) personnel stated they did not meet the anticipated
    publication date for the complete revision of DoD Directive 4165.6 because
    modifying DoD issuances is a lengthy process. According to DUSD(I&E)
    personnel, the General Counsel of the Department of Defense recommended in
    March 2004 that DUSD(I&E) rewrite DoD Directive 4165.6 as a broad policy
    document and issue three separate DoD Instructions addressing acquisition,
    management, and disposal of real property. Based on the General Counsel of the
    Department of Defense recommendations, DUSD(I&E) revised DoD Directive
    4165.6 and initiated the creation of three separate DoD Instructions. In addition,
    DUSD(I&E) personnel stated the DoD Instruction for acquisition of real property
    will include procedures for implementing the requirements of the Act. The
    anticipated completion and publication date for the revised DoD Directive 4165.6
    and the three DoD Instructions is December 2004.

    Policies and Procedures of the Military Departments. The Military
    Departments issued policy that addressed provisions of the Act. Army and Navy
    regulations governing real property acquisition were under revision and when
    issued will include procedures for implementing the requirements of the Act. Air
    Force procedures complied with the requirements of the Act and were
    documented in Air Force Handbook 32-9007.


                                        3
            Army. On June 27, 2003, the Deputy Assistant Secretary of the Army
    (Installations and Housing) issued a policy memorandum, “Implementation of the
    Rural Development Act of 1972.” The policy memorandum requested the widest
    possible dissemination of the February 21, 2003, memorandum issued by
    DUSD(I&E), “Implementation of the Rural Development Act of 1972.” The
    policy memorandum recommended the Army Components include the guidance
    in future updates of applicable regulations. However, Army Regulation
    (AR) 405-10, “Acquisition of Real Property and Interests Therein,” August 1,
    1970, as it is currently published does not include procedures for implementing
    the requirements of the Act. The Army revised AR 405-10 to address the
    requirements of the Act. The draft of the revised regulation stated that first
    priority in the location of new offices and other facilities will be given to rural
    areas, as defined by the U.S. Department of Agriculture. The Deputy Assistant
    Secretary of the Army (Installations and Housing) personnel stated that they
    disseminated the draft of AR 405-10 to all Army Components for reference until
    the revised regulation is published in May 2005. The Army is in the process of
    revising two additional regulations to include procedures for implementing the
    requirements of the Act: AR 210-20, “Master Planning for Army Installations,”
    July 30, 1993, and AR 210-21, “Army Ranges and Training Land Program,”
    May 1, 1997.

             Navy. On March 13, 2003, the Office of the Assistant Secretary of the
    Navy (Installations and Environment) issued a policy memorandum,
    “Implementation of the Rural Development Act of 1972,” to ensure
    implementation of the Rural Development Act. The policy memorandum
    attached the February 21, 2003, memorandum issued by DUSD(I&E),
    “Implementation of the Rural Development Act of 1972.” The policy
    memorandum requested current and future guidance and actions conform to the
    requirements of the Act. However, Secretary of the Navy Instruction 11011.47,
    “Acquisition, Use By Others and Disposal of Department of the Navy Real
    Property,” June 20, 1983, as it is currently published does not include procedures
    for implementing requirements of the Act. The Assistant Secretary of the Navy
    (Installations and Environment) personnel stated that a revision of Navy
    Instruction 11011.47 is currently in draft and is expected to be signed by
    August 2004. The draft Navy Instruction includes a statement that priority
    consideration shall be given to rural areas for new office locations and other
    facilities; therefore, the draft meets the requirements of the Act.

            Air Force. The Air Force addressed policies and procedures
    implementing the requirements of the Act in the Air Force Handbook 32-9007,
    “Managing Air Force Real Property,” May 1, 1999. Specifically, the Handbook
    stated that when acquiring real property, the requesting activity must provide a
    statement acknowledging the selected area is in compliance with the Act.

Recommendation and Management Comments
    We recommend the Deputy Under Secretary of Defense (Installations and
    Environment) expedite the issuance of a DoD Instruction for real property
    acquisition that includes procedures to meet the requirements of the Rural
    Development Act of 1972.


                                         4
Management Comments. The Principal Assistant Deputy Under Secretary of
Defense (Installations and Environment) concurred stating that the original intent
was to incorporate the requirements of the Rural Development Act of 1972 in the
revised DoD Directive 4165.6. However, the Office of the General Counsel
recommended that the Principal Assistant Deputy Under Secretary extract the
implementation issues from the policy directive and incorporate them into a new
DoD Instruction on the Acquisition of Real Property. The Principal Assistant
Deputy Under Secretary also stated that the DoD Instruction is currently in
coordination and that it will include the DoD guidance in a DoD Instruction as
soon as possible.




                                     5
Appendix A. Scope and Methodology
   We reviewed documentation dated 1970 through 2004. To accomplish this audit
   objective, we:

      •   Reviewed applicable policies, procedures, and regulations of the DoD and
          the Military Departments to evaluate the requirements to meet the audit
          objective.

      •   Interviewed and contacted the Office of the Secretary of Defense, Army,
          Navy, and Air Force personnel to determine the action taken to meet the
          requirements of the Act.

   We performed this audit from March 2004 through May 2004 in accordance with
   generally accepted government auditing standards.

   We did not review the management control program as it related to the overall
   objective because of the limited scope of the audit and the time constraints
   associated with submitting the report within the congressionally mandated
   6-month time frame.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office (GAO), formerly known as the General Accounting Office,
   has identified several high-risk areas in DoD. This report provides coverage of
   the Federal Real Property high-risk area.




                                       6
Prior Coverage
      During the last 5 years, GAO and the IG DoD have issued three reports and one
      testimony discussing DoD polices and procedures for implementing the Act.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Testimony No. 03-1110T, “Facilities Location: Progress and Barriers in
      Selecting Rural Areas and Using Telework,” September 4, 2003

      GAO Report No. 01-805, “Facilities Location: Agencies Should Pay More
      Attention to Costs and Rural Development Act,” July 31, 2001

IG DoD
      IG DoD Report No. D-2003-104, “Department of Defense Policies and
      Procedures to Implement the Rural Development Act of 1972,” June 17, 2003

      IG DoD Report No. D-2002-089, “Department of Defense Policies and
      Procedures to Implement the Rural Development Act of 1972,” May 10, 2002




                                         7
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        9
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     11
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

David K. Steensma
Joseph P. Doyle
Beth K. Schaefer
Gloria A. Young
Amie M. Coffren
LeBarron A. Durant
Theresa L. Tameris
